No. _ __
ROBERT BELLO,
Petitioner,
V.

ROCKLAND COUNTY, NEW YORK, ET AL.,
Respondents.

AFFIDAVIT
On this 4th day of October, 2021, I, Anthony G. Lantagne, hereby certify that this
Petition for Writ of Certiorari was sent this same day via Federal Express Overnight
Delivery to the Supreme Court of the United States. I further certify that I have served this
same date the required copies via USPS First Class Mail and email to the counsel of record
listed below:
Robert Benjamin Weissman
Saretsky Katz & Dranoff, LLP
565 Taxter Road, Suite 210
Elmsford, NY 10523
Phone: 212-973-9797
rweissman@skdllp.com
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 4th day of October, 2021.

COMMONWEALTH OF VIRGINIA
CITY OF RICHMOND

)
)

to-wit:

Anthony G. Lantagne appeared before me this 4th da ,. . - v.•nv
the foregoing affidavit is true and exact to the best his

